<html>
<title> - PROPOSALS TO AMEND THE INDIAN RESERVATIONS ROAD PROGRAM: S. 281, INDIAN TRIBAL SURFACE TRANSPORTATION IMPROVEMENT ACT OF 2003; S. 725 AND S. 1122, TRIBAL TRANSPORTATION PROGRAM IMPROVEMENT ACT OF 2003; S. 1165, AMERICAN INDIAN RESERVATION TRANSPORTATION IMPROVEMENT PROGRAM ACT</title>
<body><pre>[Senate Hearing 108-122]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-122

                    INDIAN RESERVATIONS ROAD PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                    S. 281, S. 725, S. 1122, S. 1165

        PROPOSALS TO AMEND THE INDIAN RESERVATIONS ROAD PROGRAM

                               __________

                              JUNE 4, 2003
                             WASHINGTON, DC


87-740              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 281, S. 725, S. 1122, and S. 1165, text of....................     3
Statements:
    Bingamin, Hon. Jeff, U.S. Senator from New Mexico............    79
    Bullard, Loretta, president, Kawerak, Inc., Nome, AK.........   101
    Buzzard, Harley, director of roads, Cherokee Nation Tribal 
      Council....................................................    92
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Domenici, Hon. Pete V., U.S. Senator from New Mexico.........    80
    Garrigan, James, transportation planner, Red Lake Band of 
      Chippewa Indians of Minnesota, Red Lake, MN................    98
    Gishi, Leroy, chief, Division of Transportation, BIA.........    82
    Hamilton, Arthur E., associate administrator for Federal 
      Lands Highway, Federal Highway Administration, Department 
      of Transportation, Washington, DC..........................    81
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    77
    Martin, Jackie Bob, chairman, Resources Committee, Cherokee 
      Nation Tribal Council......................................    92
    Maryboy, Mark, chairman, Navajo Transportation and Community 
      Development Committee, Navajo Nation Council...............    90
    Milonovich, Richard, chairman, Agua Caliente Band of 
      Cahuilla, Palm Springs, CA.................................    95
    Shirley, Jr., Joe, president, Navajo Nation, Window Rock, AZ.    90
    Smith, Chadwick, chairman, Cherokee Nation, Tahlequah, OK....    92
    Thomas, Hon. Craig, U.S. Senator from Wyoming................    78
    Virden, Terry, director, BIA, Department of the Interior, 
      Washington, DC.............................................    82

                                Appendix

Prepared statements:
    Bullard, Loretta (with attachment)...........................   111
    Garrigan, James (with attachment)............................   123
    Hamilton, Arthur E...........................................   140
    Inter-Tribal Council of the Five Civilized Tribes............   153
    Maryboy, Mark................................................   109
    Milonovich, Richard (with attachment)........................   156
    Ockert, general manager, Reservation Transportation Authority   173
    Shirley, Jr., Joe (with attachment)..........................   175
    Smith, Chadwick (with attachments)...........................   185
    Virden, Terry................................................   196
Additional material submitted for the record:
    Hecker, JayEtta, director, Physical Infrastructure Issues, 
      GAO, letter to Hon. Frank R. Wolf, House of Representatives   201
    Johnson, Anthony D., chairman, Nez Perce Tribal Executive 
      Committee, letter..........................................   212
    National Tribal Leadership Paper on Tribal Transportation 
      Policy.....................................................   168

 
PROPOSALS TO AMEND THE INDIAN RESERVATIONS ROAD PROGRAM: S. 281, INDIAN 
 TRIBAL SURFACE TRANSPORTATION IMPROVEMENT ACT OF 2003; S. 725 AND S. 
 1122, TRIBAL TRANSPORTATION PROGRAM IMPROVEMENT ACT OF 2003; S. 1165, 
   AMERICAN INDIAN RESERVATION TRANSPORTATION IMPROVEMENT PROGRAM ACT

                              ----------                              


                        WEDNESDAY, JUNE 4, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 485, Senate Russell Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Johnson, Thomas, Domenici, and 
Murkowski.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The Committee on Indian Affairs will be in 
session.
    Senator Inouye will be along shortly, but we will go ahead 
and get started.
    Welcome to the committee's hearing on various legislative 
proposals to reauthorize the Indian Reservation Roads program; 
60 percent of roads in the IRR system remain unpaved, which has 
obvious impacts on the tribes' ability to improve their 
economies. Rural Indian communities having paved roads often 
means the difference between life and death in terms of fire 
and police protection, ambulance service, and our growing 
concern with homeland security.
    As of this past Monday, four Indian roads bills are pending 
before the committee: S. 281, which I introduced, S. 725, which 
Senator Bingaman introduced, S. 1122, by Senator Johnson, and 
S. 1165, by Senator Domenici. Today we will hear from Federal 
and tribal witnesses to determine how best to reform the IRR 
program. I will tell the members that it is my intention to 
report a bill by the end of June as part of the larger TEA-21 
reauthorization which will be on the Senate floor in July.
    [Text of S. 281, S. 725, S. 1122, and S. 1165 follow:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. With that, Senator Johnson, did you have any 
opening comments before we start?
    Senator Johnson. Yes; just briefly, Mr. Chairman.
    Thank you for holding this important hearing today. I 
appreciate your leadership on this. I have a full statement I 
would like to submit for the record.
    The Chairman. Without objection, it will be included in the 
record.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. I want to thank you as well as Senator 
Bingaman for work in this important area. I also want to 
express appreciation to the NCAI and my own Standing Rock Sioux 
Tribe for their leadership on tribal transportation issues. The 
tribes, in conjunction with the NCAI put a lot of time and 
effort into developing ideas that can be incorporated into 
legislation. It is important that these ideas were developed by 
the very people who have to implement these programs to deal 
with transportation challenges every day.
    My bill, S. 1122, is the result of the work of the tribes 
in the NCAI. It is a comprehensive effort. I know that you, Mr. 
Chairman, and Senator Bingaman, have put a great deal of effort 
into transportation bills. This has been designed to be a 
comprehensive and ambitious effort. I think it is important 
that we get all the issues out on the table.
    Just very quickly, S. 1122, in addition to obviously 
increasing the amount of funding for the IRR funding, beefs up 
the Tribal Transportation Safety Program, providing more funds 
for purposes such as widening shoulders, and more guardrails.
    Second, it assures that tribes can apply for scenic byways 
status through the Federal system.
    Third, it assures that tribes can derive direct funding 
from the Federal Government rather than having the programs be 
implemented through the States.
    Fourth, it takes a hard look at the maintenance issue. It 
makes no sense to me that we should put significant 
expenditures into the building of roads if we are not going to 
provide enough funding to keep those roads properly maintained.
    Fifth, it explores the idea of having a high-ranking person 
at DOT who can assist the tribes in their navigation through 
the system.
    Over the past 2 weeks I have spent a great deal of time 
traveling around South Dakota, including travels throughout our 
Indian reservations, including the Pine Ridge Reservation. 
Frankly, the conditions of some of these roads is horrible. It 
is a public safety menace. It is a detriment to economic 
development. It is simply its own fare to tribal people. The 
Federal Government has fallen down on its treaty and trust 
obligations. It has enormous consequences in Indian country.
    Mr. Chairman, I thank you for this hearing. I look forward 
to the testimony. I hope that as we go on through this year 
that we can merge a lot of these ideas together in a way that 
will be constructive and which will significantly enhance the 
quality of transportation and the safety of transportation in 
Indian country.
    The Chairman. Thank you. I agree with you. I think there 
are important provisions in each of the four bills. Hopefully 
we will be able to merge those and come out with a composite 
that is in the best interest of Indian people.
    Senator Thomas.

      STATEMENT OF CRAIG THOMAS, U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    I, too, appreciate your having this hearing. Certainly it 
is very important. Indian country is part of the concerns that 
we have about highways. We need to have more transportation 
support there.
    I have an unique involvement here in that I am on the 
Finance Committee that has jurisdiction over the taxes paid. I 
am also on the Committee on Environment and Public Works, which 
is reauthorizing TEA-21. I understand the importance of that 
investment. I am interested in hearing about Senator Bingaman's 
bill.
    I do want to caution my fellow members that we need to 
remember that TEA-21 includes a number of very important 
programs. We must be careful that we are not disproportionate 
of one over another. We have significant increases in the 
Reservation Road Program. Where is that funding coming from? 
Are we going to increase taxes? Are we going to reduce State 
highway funding? If we double that, we are going to have to 
find some other additional sources.
    I did a little checking. I think certainly it is important 
that we do this. Reservation roads have some Indian Reservation 
Road Program money in there as well as the Department of 
Transportation, the county road funding, and the State gas tax. 
So we need to look at the balance of how we do this. It is 
going to be a challenge. There is a great deal of discussion 
about the donors and the recipients in the gas tax proposition. 
There are some opportunities to raise the gas tax. Most people 
are not in favor of that.
    I guess what we are looking for is a fair distribution of 
these dollars that are available. I think this is an excellent 
hearing. I am glad you are having it. Thank you.
    The Chairman. Thank you.
    Senator Domenici, did you have any comments before we 
start?
    Senator Domenici. Mr. Chairman, I was here either as a 
member or as a witness, whichever the Chair prefers, with 
reference to the highway funding bill, which I have introduced, 
along with four or five other Senators. Thank you.
    The Chairman. With that, we will go ahead and start.
    Senator Bingaman, welcome to the Committee.
    Senator Domenici, do you also want to testify on S. 1165?
    Senator Domenici. No; I have a separate bill.
    The Chairman. Okay. We will start with Senator Bingaman.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    Senator Bingaman. Mr. Chairman, let me join with all the 
other members in thanking you for holding the hearing on this 
important issue.
    As you pointed out, there is a bill that you have 
introduced, S. 281. Senator Domenici's bill is S. 1165 that he 
has introduced. Senators Johnson and Daschle have introduced S. 
1122. I have introduced S. 725. There are many bills before the 
committee for consideration. I think we are fortunate today 
that President Joe Shirley of the Navajo Nation is here as well 
as Mark Maryboy of the Tribal Council, to testify. The Navajo 
Nation is the largest tribe with the largest land area. Their 
voice in this issue is extremely important.
    The point that Senator Thomas made about trying to decide 
how to allocate the funds that are available for highways is 
exactly the right issue for us to concentrate on. In that 
regard, there is one statistic I want to cite to the Committee 
because I think it is important. The IRR program is currently 
authorized for $275 million per year. This level represents 
less than 1 percent of the annual Federal funding for road 
construction and rehabilitation. However, the 50,000 miles in 
the IRR system represent about 5 percent of the Nation's 
957,000 miles of Federal-aid highways. In my view, if you are 
looking at a fair allocation, we are not providing that today 
with the current authorized level. We need to increase that.
    The main trust of the bill I have introduced, along with 
Senators Feinstein and Leahy is to increase that authorization 
and to do so in a way that will allow some of the real problems 
in this road construction to be dealt with. The BIA now 
estimates the backlog in transportation needs at almost $10 
billion, up from $6.8 billion just 4 years ago.
    I was disappointed, as I am sure all of you were, that in 
the appropriations process this year we reduced the level of 
funding available for the Indian Reservation Roads Program by 
$40 million, from $280 million last year to about $240 million 
this year. Last month there were 15 Senators, some of you 
included, who signed a letter to the Appropriations Committee 
requesting a $350-million appropriation for the program in this 
upcoming year, in 2004.
    Funding for tribal transportation programs needs to be one 
of our top priorities as we go into this reauthorization of 
TEA-21. The bills that you have before you, I think, give you a 
very good basis upon which to report out constructive 
legislation on this subject. As I understand it, the tribes' 
single highest priority transportation issue is adequate 
funding.
    The goal of the bill that I introduced is to improve basic 
transportation and promote the independence and self-
determination of Indian people. It is essential that Indian 
country be heard in this reauthorizing process. I think this 
hearing is a major step in that direction.
    I appreciate the chance to speak briefly. I know you have 
many witnesses here who will give you great insight into the 
needs and the justification for some of these bills. Thank you 
again, Mr. Chairman.
    The Chairman. Thank you, Senator Bingaman.
    Senator Domenici, would you like to say a few words about 
S. 1165?

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you, Mr. Chairman.
    It has been 30 years or more since we started this set-
aside out of the Highway Trust Fund. Before that, it was just 
hit or miss, and get what we could. I was very pleased to be 
part of the very first bill with Senator Patrick Moynihan. Each 
time since we have had an opportunity to introduce a bill. Each 
time we have substantially increased the amount, knowing full 
well, the increased needs.
    The bill that I have introduced, which you have cosponsored 
along with three other Senators, including Senator Bingaman, I 
believe is the minimum amount that we should proceed with. It 
increases the amount of the request to $330 million in the 
first year and a $30-million increase each year thereafter.
    In addition to that, however, it does two or three things 
that are very much needed. First of all, it is important that 
the moneys that are set aside for the building of bridges, that 
the Indian people be allowed to use that money for planning and 
engineering purposes. This bill gives them that authority. 
Otherwise, we find a hiatus; the money is there for the 
building but the money is not there for the planning and the 
design. In addition, we increase the contract authority 
substantially. That, too, is very much needed and was requested 
specifically in negotiations with the Navajo Nation.
    All in all, Mr. Chairman, I believe that S. 1165, the 
American Indian Reservation Transportation Improvement Act, is 
an excellent bill. I have more detail regarding it in a 
statement and a summary. It also creates for the first time an 
Indian reservation rural transit program. It authorizes $20 
million each year for that purpose. That is the program as 
compared with the highways.
    I think it is very important that we start by having every 
entity in our country that manages and has roads to have a 
program surrounding it with professionals. The creation of that 
would be very important.
    Thank you for letting me spend just a few moments. Senator 
Inouye has joined me in my bill, as have you. I thank him and 
you for that. I urge not only that you move expeditiously to 
pick the best bill, but that we collectively pursue with some 
degree of vigor the committee of jurisdiction, and thereafter 
as suggested by Senator Bingaman, that we pursue the 
appropriators so that we do not have our Indian people 
expecting a high level, to find that the appropriations process 
has reduced it substantially.
    Since we have begun this rather significant set-aside 
process under the name and nomenclature of an Indian set-aside 
for roads, we have made significant gains, especially in Navajo 
lands where it is quite obvious that the open spaces require 
roads. When you finally see them built, it is quite obvious 
that they are links that are heavily used for many purposes by 
the Navajo people to improve their daily lives. I thank you for 
that, Mr. Chairman. It is a pleasure to be with the President 
of the Navajo Nation. I wish him the best in his new job as 
leader of the Navajo people.
    Thank you very much.
    The Chairman. Thank you. I look forward to working with 
you, Senator Bingaman, and Senator Johnson in trying to make a 
composite bill that takes the best features of all of them. 
Hopefully we can move it through as quickly as we can.
    Thank you, Senator Bingaman.
    We will now begin with our first panel. That will be Arthur 
Hamilton, Associate Administrator for Federal Lands Highway, 
Federal Highway Administration, Department of Transportation, 
Washington, DC. We will also hear from Terry Virden, Director, 
Bureau of Indian Affairs [BIA] Department of the Interior, 
Washington, DC.
    Your complete written statements will be included in the 
record. If you want to abbreviate your statement, you are 
welcome to do so.
    We will go ahead and start with Mr. Hamilton since I 
introduced him first.

 STATEMENT OF ARTHUR E. HAMILTON, ASSOCIATE ADMINISTRATOR FOR 
    FEDERAL LANDS HIGHWAY, FEDERAL HIGHWAY ADMINISTRATION, 
          DEPARTMENT OF TRANSPORTATION, WASHINGTON, DC

    Mr. Hamilton. Thank you, Mr. Chairman.
    I am honored to testify on two legislative proposals for 
amending the Indian Reservation Road Program now before this 
committee. I would also like to highlight some provisions in 
the Administration's bill, SAFETEA, that address tribal 
transportation needs.
    Secretary Mineta has described transportation as the 
critical tool for economic development and quality of life in a 
community. The Administration is committed to providing safe 
and efficient transportation, for both residents and visitors, 
for access to and within Indian lands and Alaska Native 
villages, while protecting the environment and cultural 
resources.
    We want to work with this committee, with tribes, and with 
the BIA to improve the Indian Reservation Road Program, and to 
increase tribal participation in the overall Federal aid 
program.
    SAFETEA proposes a funding increase for the IRR program of 
almost 25 percent over the TEA-21 authorized level, nearly $2 
billion total over a 6-year period. SAFETEA would provide the 
IRR program with obligation authority equal to contract 
authority, as also proposed by Senators Campbell and Bingaman. 
We believe that with full OA, the funding increase proposed in 
SAFETEA can make a substantial contribution toward meeting IRR 
program needs, and is sustainable based on current estimates of 
Highway Trust Fund revenues.
    The Administration's proposal has also built in new 
opportunities for tribes to access Federal funding beyond the 
IRR program, including training and technical assistance. 
Tribes must be involved at all stages of the transportation 
planning process.
    Our proposed planning capability initiative should 
facilitate this involvement. One of its objectives is to 
enhance tribal capacity to conduct joint transportation 
planning. Increased tribal participation in metropolitan and 
statewide planning for the Federal-Aid Program can lead to 
leveraging funds between tribes and States on projects of 
mutual benefit.
    As you are aware, safety is a major problem on IRR roads 
the fatality rate on Indian reservation roads is four times 
higher than the national average. Secretary Mineta made 
improving safety and reducing highway fatalities the focus of 
the Department's reauthorization proposal, and overall funding 
for highway safety would more than double under SAFETEA. 
Included would be a new dedicated safety funding category under 
the Federal Lands Highway Program, funded at $40 million per 
year with 15 percent of the funds allocated to BIA for Indian 
Reservation Roads. The funds would be in addition to the 402 
program funds which are also available.
    A proposed new core Federal-aid program, the Highway Safety 
Improvement Program, can be especially important for increasing 
the State focus on tribal transportation facilities. The new 
program calls for State strategic goals that address all 
roadways in the State and focus on the areas of greatest need. 
To take full advantage of the funding flexibilities in this new 
program, a State would have to develop, through a collaborative 
process, a data-based strategic highway safety plan. In States 
with extensive Indian lands, and high crash statistics on 
Indian Reservation Roads, tribes or their representatives would 
be considered major stakeholders in developing the plan.
    SAFETEA also proposes a major consolidation of highway 
safety grant programs, including incentives for safety belt use 
and prevention of impaired driving. BIA would be eligible for 
grants. The National Highway Traffic Safety Administration will 
continue partnering with the Indian Health Service to develop 
culturally specific programs to address impaired drivers and 
occupant protection, and to expand tribal participation in 
upcoming safety belt and impaired driving initiatives.
    In conclusion, while the Administration has concerns about 
certain aspects of these two bills, primarily related to our 
responsibility for stewardship of highway trust fund dollars, 
we support many of the provisions and have similar proposals in 
SAFETEA.
    I would like to work with this Committee, our tribal 
partners, and the BIA on ways to better meet tribal 
transportation needs.
    Mr. Chairman, again thank you for the opportunity to 
testify. I would be happy to answer questions you or other 
members may have. I would ask that my prepared statement be 
inserted in the record in its entirety.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Mr. Hamilton appears in appendix.]
    The Chairman. Thank you.
    Mr. Virden.

STATEMENT OF TERRY VIRDEN, DIRECTOR, BUREAU OF INDIAN AFFAIRS, 
  DEPARTMENT OF THE INTERIOR, WASHINGTON, DC, ACCOMPANIED BY 
         LEROY GISHI, CHIEF, DIVISION OF TRANSPORTATION

    Mr. Virden. Mr. Chairman and members of the committee, I am 
pleased to be with you today to provide the Department's views 
on S. 281 and S. 725.
    Since enactment of TEA-21, the Federal investment in the 
BIAs' Indian Reservation Roads [IRR] Program has exceeded $1.6 
billion. This has allowed us to improve over 900 miles of road 
and replace or rehabilitate 76 bridges, during this period.
    Despite these efforts, as has been mentioned previously, 
there is still a great need for improving the transportation 
system in Indian country. Improved transportation systems are 
vital to improving public safety and increasing economic 
opportunities in Indian and Alaska Native communities.
    The Department supports the objectives of S. 281 to improve 
roads on Indian reservations, but we do have some concerns 
regarding certain provisions. We would like to work with the 
committee in suggesting some clarifications in the bill.
    We strongly support the provision eliminating the impact of 
the obligation limitation. The Administration's bill, SAFETEA, 
would provide obligation authority equal to contract authority 
so that IRR funds authorized can be obligated. Under TEA-21, 
the Indian Reservation Roads Program received a proportional 
reduction of obligation limitations for new funds using the 
same ratio as that applied to States, resulting in a partial 
loss of authorized funds. Enactment of this provision would 
make available as much as an 11-percent increase in 
transportation-related services to Indian country.
    We support the efforts to increase tribal involvement in 
the transportation programs, but have some concerns with the 
language authorizing the demonstration project.
    First, the legislative language does not explicitly state 
that the Department of Transportation is eligible to contract 
with tribes pursuant to the Indian Self-Determination and 
Education Assistance Act, Public Law 93-638. This is necessary 
for the successful implementation of this provision.
    Second, the demonstration project does not clarify which 
agency would be the owner agency. Currently, the BIA is the 
facility owner and responsible agency for approximately 25,000 
miles of the 60,000 miles in the Indian Reservation Roads 
system. If the committee moves forward with these provisions, 
we ask that you clarify which agency would be responsible for 
health and safety, and liability for any roads, bridges, or 
other related projects built under this project.
    As proposed, this bill would change the law to cap the BIA 
to no more than 6 percent for administration and oversight of 
both non-project-related and project-related management and 
oversight. This would have the effect of drastically reducing 
resources available for direct service tribes.
    Under the current law, the BIA has the responsibility for 
oversight of the entire IRR program as well as certain specific 
responsibilities regarding individual road projects. The BIA 
has consistently used less than the 6 percent allowed to 
perform non-contractible, non-project-related functions, such 
as budget formulation, review of legislative proposals, and 
processing transportation improvement programs [TIP's] for the 
submission to Federal Highways Administration, preparing annual 
funding agreements, defending contract dispute actions, and 
providing technical assistance to tribes. This also includes 
project-related administration oversight for health and safety 
for direct service Public Law 93-638 tribes that depend on the 
BIA for road projects.
    Non-project-related work includes non-contractible 
activities such as the final inspection of completed road 
projects, processing payments to contracting tribes, reviewing 
environmental, archeological, and historic preservation 
activities relating to contracted road projects; processing 
rights-of-way acquisitions, preparation for road construction, 
reviewing plans, specifications and estimates, and conducting 
engineering and design activities where applicable.
    In fiscal year 1999, the BIA obligated $43 million for 
project-related functions for all tribes. Of this amount, 75 
percent was obligated for direct-service tribes for engineering 
design, environmental compliance, historic preservation 
compliance, acquisition of rights-of-way, and assuring 
compliance with construction standards as required by title 23. 
Of the 887 Indian Reservation Roads projects requiring 
engineering design, 660, or approximately 75 percent, were 
designed by the BIA on behalf of direct service tribes.
    The proposed changes in the law in S. 281 would require the 
BIA to perform a similar number of engineering and design 
projects for direct service tribes with drastically reduced 
funding. The proposed change is not necessary because the BIA 
uses the 6 percent program management funds in a manner that 
ensures that all of the BIA's inherent Federal functions are 
completed, and that direct service tribes are serviced from 
their project funds.
    Thus, it is only appropriate for the BIA to use project 
funds for oversight of Self-Determination Tribal Indian 
Reservation Road projects and to carryout BIA's 
responsibilities. As the General Accounting Office noted in its 
letter to this committee dated August 14, 2000, the BIA uses 
the funds consistent with the law and, in fact, the BIA, over 
the last 3 years, has responsibly limited the amount of funding 
for non-project program management to an amount less than the 6 
percent.
    Currently the BIA reviews and approves plans, 
specifications, and estimates for Indian Reservation Roads 
projects to ensure that construction of the projects will not 
jeopardize health and safety. This is not uncommon in road 
construction for several reasons.
    First, title 23 requires that approved plans and 
specifications are necessary before any project authority may 
proceed to construction. The facility owner has the 
responsibility to approve plans and specifications for the 
projects within its jurisdiction.
    The concern of the BIA has been that approval authority for 
the 37,000 miles of roads and bridges that are not the 
responsibility of the Secretary should be coordinated with 
those respective facility owners--county, State, or other local 
governments.
    In the last year the BIA has worked with tribes on 
individual contracts and agreements to provide tribal approval 
of plans, specifications, and estimates [PS&ES] on BIA roads. 
The BIA believes that this provision is unnecessary as changes 
within the soon-to-be-published final Indian Reservation Roads 
regulations will help clarify the tribes' roles, and provide 
tribes under Public Law 93-638 contracts and agreements the 
ability to approve PS&Es.
    We support tribal eligibility for seat belt safety and 
intoxicated driver safety programs as proposed in the 
Administration's bill. SAFETEA calls for the consolidation of 
these programs under the National Highway Traffic Safety 
Administration's Section 402 program. The BIA will work with 
this committee and the Secretary of Transportation on 
implementing any such provisions that support the success of 
these safety-related measures.
    S. 281 establishes the Native American Commercial Driving, 
Training, and Technical Assistance Program for tribal colleges. 
The intent of this program is to encourage economic 
opportunities for tribal members.
    In addition, this training program would be conducted by 
tribal colleges and universities and provide them with value-
added educational programs for their students. We support 
additional training programs for Native Americans.
    We have some of the same concerns for the demonstration 
projects in S. 725 as I mentioned in S. 281. S. 725 creates a 
tribal-specific transportation safety grant program that 
emphasizes intoxicated driver safety, the promotion of 
increased seat belt use, and the elimination of hazardous 
locations. The new program established under S. 725 would 
supplement existing safety grant programs in the Indian Highway 
Safety Program under section. 402 of Title 23.
    S. 725 establishes an Indian reservation rural transit 
program designed to provide competitive grants to Indian tribes 
to establish rural transit programs on reservations or other 
land under the jurisdiction of the tribes.
    The Department supports the development of rural transit 
programs in Indian and Alaska Native communities. However, we 
feel the provisions in SAFETEA better address tribal needs in 
the current economic environment.
    With that, I thank you for allowing me to testify today on 
behalf of the Department. I would ask that my prepared 
statement be inserted in the record in its entirety.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Mr. Virden appears in appendix.]
    The Chairman. Thank you.
    I have several questions. I am sure Senator Johnson has 
questions, too.
    I was disappointed to note the Administration's proposal, 
SAFETEA, that the incentive grants in the areas of seat belts 
and intoxicated drivers are being combined in the National 
Highway Traffic Safety Administration.
    Mr. Hamilton, why is the BIA is the only eligible grantee 
for this funding and Indian tribes are not available for direct 
funding?
    Mr. Hamilton. I do not have that information with me today, 
Senator. I would like to provide an answer to you for the 
record.
    The Chairman. I wish you would. We give direct funding to 
the States and to many other agencies within State governments. 
I do not know why the tribes should not be eligible for direct 
funding.
    If you would give us that information, I would appreciate 
it.
    Mr. Hamilton. Certainly.
    [Material to be supplied follows:]

    The current State highway safety grants process under the 
Transportation Equity Act for the 21st Century (TEA-21) is 
complex and time-consuming, consisting of eight programs with 
varying qualification and administrative requirements. 
Therefore, the Administration has proposed restructuring and 
consolidating the highway safety grant programs. The new 
approach simplifies grant administration by first, reducing the 
number of grant programs, and second, streamlining the process 
to administer and to qualify for grant funds. All TEA-21 
highway safety grant resources, including section 157 (``Safety 
incentive grants for use of seat belts'') and section 163 
(``Safety incentives to prevent operation of motor vehicles by 
intoxicated drivers'') grant programs would be consolidated 
within the National Highway Traffic Safety Administration 
(NHTSA). States predominantly have used these flexible funds 
for highway safety purposes. Moving these funds into the NHTSA 
account will streamline grant management.
    Section 402(i) of Title 23, United States Code, designates 
the Secretary of the Interior as the coordinating entity for 
the purpose of application of the highway safety program for 
Indian tribes. The Secretary of the Interior has delegated this 
authority to the Bureau of Indian Affairs [BIA] to administer 
the federally funded highway safety program on behalf of the 
tribes. Indian tribes are eligible to apply for grants in the 
highway safety program through application to the BIA, just as 
local governmental entities participate through their State 
Highway Safety Offices. This process has served the program 
well, as the BIA contracts with individual Indian tribes 
meeting specific criteria. The BIA serves in the capacity of a 
govenor's highway safety representative in managing, providing 
technical assistance, and monitoring the section 402 highway 
safety program. Under the Safe, Accountable, Flexible, and 
Efficient Transportation Equity Act of 2003 [SAFETEA], the BIA 
would administer the consolidated highway safety grants as they 
have grants under TEA-21 and other previous authorizations.

    The Chairman. How does a tribal road-building company, or 
an engineering firm, or a surveying firm, get into the 
procurement list to be considered for road building contracts?
    Mr. Hamilton. Under the Federal Lands Highways Program, we 
procure design services and construction services. We basically 
solicit through the bidding process, using the low bidding 
process. We open the door for any company within the area that 
the project is located.
    The Chairman. One of the problems that I think we have had 
with contracting and getting into the bidding process with 
tribally-owned firms is a lot of times they do not know they 
are eligible, or they do not know the exact process of how to 
get in. Do you have a system in place to notify them, educate 
them, and help them?
    Mr. Hamilton. Yes; we do. I was not aware that there had 
been some concerns. We do have a system in place where we can 
work through the Tribal Transportation Assistance [TTAP] 
centers to help provide that information to the tribes.
    The Chairman. Your testimony mentions that the 
demonstration project in S. 281 would duplicate DOT technical 
assistance programs. Mr. Virden also mentioned something about 
the demonstration project also.
    Do you know how many Native Americans are trained through 
the DOT program? Is any of the training located on tribal 
lands?
    Mr. Virden, maybe you might know the answer to that.
    Mr. Virden. Yes; please bear with me for 1 minute. There is 
one tribal college participating. That would be the United 
Tribes Technical College in Bismarck, ND. As far as the number 
of students that are currently in the program, I do not know. 
We can provide that at a later date.
    The Chairman. What kind of training do they go through at 
United Tribes; do you know?
    Mr. Virden. It is training for certification for commercial 
driving.
    The Chairman. The American Trucking Association tells me 
that normally they are short about 300,000 drivers every year. 
I would think that that program needs to be expanded 
considerably. In fact, I had a bill in to do something like 
that, giving the Department of Labor grants to schools that 
would start driver training programs. It did not go anywhere 
last year, but it is now part of S. 281. You might want to look 
at the bill. I think it is a bill that could be of great help.
    Mr. Hamilton, does the Administration's proposal have any 
programs in which tribes have direct access to Federal funding, 
like the States do?
    Mr. Hamilton. No; we do not, Senator. We do not have any 
programs right now that have direct funding to the tribes.
    The Chairman. Why is that?
    Mr. Hamilton. Normally, title 23 requires that the funds 
either be sent through the State Department of Transportation 
or, within the Federal Highway Program, the funds are allocated 
to the BIA.
    The Chairman. Mr. Virden, as I understand it, about 6 
percent of IRR funding is used for administrative expenses. In 
some areas that is considered high. Also, as I understand it, 6 
percent is set statutorily. Could you explain why the 
administrative expenses are over 6 percent?
    Mr. Virden. Historically, as I mentioned, in the last three 
years we have stayed under that 6 percent.
    The Chairman. Your information is different than mine.
    Mr. Virden. There are some legitimate costs for 
administration which really should not be tied to projects. 
They are not related. Examples of some of these expenditures 
are as follows: These figures are from last year, the Tribal 
Transportation Assistance Centers, $980,000; Council of Tribal 
Advisors for the Lewis and Clark Bicentennial; inspection of 
the BIA bridges; regulatory negotiations with tribes; and 
supporting the National Tourism Conference for Native 
Americans.
    The Chairman. All right.
    In 1998 I had an amendment to TEA-21 that made it clear 
that all funds--not some funds--are available to Indian tribes 
for contracting under the Indian Self-Determination Act. Do you 
know how many contracts are in existence? Which tribes have 
those contracts for highway construction?
    Mr. Virden. I do not know how many exactly. I do have Mr. 
Leroy Gishi, my Division Chief for the Division of 
Transportation with me today. He may have that figure.
    The Chairman. Please come up to the table, Mr. Gishi, and 
give the committee those numbers, if you have them.
    Mr. Gishi. Mr. Chairman, just to clarify, the amount of 
funds associated with the IRR programs in the past, 
consistently over the last three to 4 years, has been about 45 
to 47 percent for self-determination contracts or self-
governance agreements. I say the amount of funding, because the 
bulk of contracting or compacting tribes does not represent 47 
percent of those tribes. There are a number of them that have a 
significant amount of program dollars based on the formula that 
is initiated and that is based on the need.
    If you look at it from that standpoint, that represents 
anywhere from about 50 to 70 tribes that are contracting work 
under the new self-determination act.
    The Chairman. Thank you.
    I have one last question before I ask Senator Johnson for 
his questions.
    I understand the Bureau keeps a list of road consultants 
who are pre-qualified and get most of the contracts to build 
the roads in Indian country. Of the list of pre-qualified 
people, are any of them Indian-owned firms?
    Mr. Gishi. Yes; as a matter of fact, the primary procedure 
in the procurement and the contracting process that the BIA 
uses in the Indian Reservation Roads Program is to, first of 
all, provide the right of first-refusal to tribes to give them 
the opportunity to contract the work if, in fact, that is what 
they want to do. Some do portions of it. Some just do the 
construction. Some do the design or the historic preservation 
portions.
    After that, we follow the Buy-Indian Act. We advertise and 
seek competition among Indian contractors. If there are no 
Indian contractors available, then we advertise in the open 
market for all contractors.
    The Chairman. Very good. Thank you for your testimony. I 
have no further questions.
    Senator Johnson, do you have any questions?
    Senator Johnson. Just briefly. Thank you, Mr. Chairman. 
Thank you to the panel.
    Much of my concern, frankly, is going to come down simply 
to the overall level of funding and the allocations involved 
here. Clearly, as I think Senator Bingaman very ably noted, the 
amount of funding available for roads in Indian country is far 
less than what the miles suggest ought to be case. We need to 
address that.
    I am particularly distressed of an actual decline in 
funding available for the IRR program this year. This is an 
utterly unacceptable circumstance.
    Let me ask Mr. Hamilton. One of the issues--and Chairman 
Campbell has touched on this as well--that does not get a lot 
of attention because it is so unique to Indian country, is the 
whole question of the tribe's preference of working directly 
with the Federal Government rather than to have to go to their 
respective States for highway funds, whether it be maintenance, 
safety, scenic byway, transit funding, and so on.
    The tribes, as they remind me on a regular basis--and 
rightfully so--are sovereign entities. The tribes are not 
administrative subunits of States at all. My legislation does 
address that issue. I would hope that you would work with us to 
see that we can perfect a better mechanism to implement that. 
This is a matter of great practical and philosophical import to 
our sovereign tribes. It is long overdue that we finally 
correct this and quit treating them as though they were a 
county, or some sort of administrative subset. They are not. We 
need to work with you to see if we can correct that.
    Mr. Hamilton. We would be happy to work with you, Senator. 
Right now, title 23 and other program legislation requires that 
funds this be sent through the State Highway Departments. We 
work jointly with BIA to administer the Federal Lands program. 
But otherwise we have no choice, because of title 23, other 
than to work directly with State DOTs.
    Senator Johnson. We need to address that. I am hopeful that 
as we put together legislation, we can do that. The 
circumstances of the tribes are widely varying in their size 
and their ability to work with the Federal Government and with 
the States. But the relationships between the tribes and the 
States is highly variable as well. In some places it is fairly 
good, and in other places, it is not. In all circumstances, 
they are not entities of the State. I hope working with you and 
with the Chairman, we can finally begin to deal with the tribes 
on their proper status.
    Mr. Hamilton. One of the things that we are proud of is our 
transportation planning capacity program under SAFETEA, which 
we think will provide an opportunity for the tribes to be able 
to work a lot closer with State DOTs in the planning process, 
which is really needed. They need to be at the table during the 
Statewide planning, or the metropolitan planning process, which 
would open up more avenues of funding for the tribes.
    Senator Johnson. Cooperation and coordination is one thing. 
We are all for that. But tribes should not have to go hat-in-
hand to the State as though it were up to the State to choose 
unilaterally about these projects. That is the only thing I 
wanted to share with you.
    Mr. Chairman, I have a conflicting obligation, as is so 
often the case. I am going to have to excuse myself. This is a 
very valuable hearing. I thank you for chairing this. I look 
forward to working very closely with you and our colleagues to 
make some very serious progress on Indian road circumstances in 
the Nation this year.
    The Chairman. We might be able to work with the EPW through 
Senators Inhofe and Jeffords to change Title 23. I think there 
is some confusion. Often people think that the Bureau is the 
tribes. It is not. If we really believe in self-determination, 
we have to give more access to the tribes to deal directly with 
the Federal Government.
    Senator Johnson. While a lot of the IRR money comes through 
the BIA, there is a lot of money that just flat out goes to the 
various States.
    The Chairman. It does not filter down.
    Senator Johnson. I think that we need to readdress that.
    The Chairman. Thank you.
    We thank this panel very much for being here.
    Our next panel will be Joe Shirley, president, of the 
Navajo Nation; Chad Smith, chairman, the Cherokee Nation; 
Richard Milonovich, chairman, Agua Caliente Band of Cahuilla; 
James Garrigan, transportation planner, Red Lake Band of 
Chippewa Indians of Minnesota; and Loretta Bullard, executive 
director, Kawerak.
    While you are being seated, we are going to take a 5-minute 
break.
    [Recess taken.]
    The Chairman. The committee will come to order.
    As with the last panel, if you would like to submit your 
complete written testimony, it will be included in the record. 
You are welcome to abbreviate your testimony.
    We will start in the order that I mentioned your name. We 
will start with Joe Shirley, Jr., president of the Navajo 
Nation.

 STATEMENT OF JOE SHIRLEY, Jr., PRESIDENT, THE NAVAJO NATION, 
WINDOW ROCK, AZ, ACCOMPANIED BY MARK MARYBOY, CHAIRMAN, NAVAJO 
TRANSPORTATION AND COMMUNITY DEVELOPMENT COMMITTEE, THE NAVAJO 
                         NATION COUNCIL

    Mr. Shirley. Thank you, Chairman Campbell. My name is Joe 
Shirley, Jr. I am president of the Navajo Nation.
    Chairman Campbell, Vice Chairman Inouye, and members of the 
committee, it is my honor to appear before you on behalf of the 
Navajo people to address your proposals to amend the Indian 
Reservation Roads Program. I am joined by Mr. Maryboy, chairman 
of the Transportation and Community Development Committee of 
the Navajo Nation Council whose recommendations are reflected 
in legislation before you.
    The issue before you today is how to build travel 
transportation systems that will enable Indian people to go 
from Third World conditions, which tend to squash human 
potential to First World conditions, which tend to make it 
easier for the best within us to become a reality.
    Transportation is essential to the basic quality of life 
and economic development of tribal communities. There are 
approximately 9,826 miles of public roads on the Navajo Nation 
which itself is about the size of West Virginia. While West 
Virginia has 18,000 miles of paved roads, the Navajo Nation has 
only 2,000 miles of paved roads; 78 percent of our roads are 
dirt. On a regular basis, businesses explore the possibility of 
locating to the Navajo Nation, but they do not once they 
realize the lack of paved roads. Bad roads in Indian country 
not only mean the difference between poverty and prosperity, 
but they also mean the difference between life and death.
    Health clinics on the Navajo Nation are few and far 
between. Tribal members, including the elderly, the children, 
and the disabled, often must travel hundreds of miles to 
receive specialized care. Dirt roads, deteriorating paved 
roads, and treacherous bridges, make their long journeys that 
much more difficult. It is no coincidence that automobile 
accidents are the number one cause of death among young 
American Indians. The annual fatality rate on Indian 
reservation roads is more than four times the national average.
    Our children's education is also threatened by dirt roads 
that become so bad that they are impassable to school buses. As 
you know, the BIA school buses alone travel over 15 million 
miles a year to transport Indian children on what is often a 
one-lane dirt road, lacking any basic safety features such as 
shoulders or guard rails.
    I want to read two letters from two Navajo children who 
attend the Pine Springs Bureau of Indian Affairs Elementary 
School within the Navajo Nation in Pine Springs, AZ.
    Their words say more than I ever could about how the 12-
mile dirt road, which is the only way to access their school, 
impacts their education.

    Dear Roads Task Committee. Hi. My name is Jonathan. I go to 
school at Pine Springs School. I want the road graded because 
some people drive slow because the road is too bumpy and rough 
because there are too much rocks sticking out of the ground. 
Please pave the road north of Pine Spring Road. Please, because 
it is bumpy, too. Please do not let the kids get hurt on the 
bus. The kids get hurt because the kids get cut on the bus. 
That is really dangerous for the kids. The milk and grocery 
truck comes up here every week. They do not like the rough 
road, too. Let our safety come first. Kids come first above 
all. We have a real nice school and we enjoy it very much. 
Jonathan Smith.

    The second letter, Mr. Chairman, reads as follows:

    Dear Roads Task Committee. Hello. My name is Marcario 
Betoney. I go to school at Pine Springs School. I hate the road 
up here because we get flat tires and the buses get broken 
down. Then the buses do not come right on time when school 
starts. When people drive really fast the rocks jump up and hit 
the windshield. Then the windshield cracks. Then they have to 
take the car and truck to the shop to get it fixed. People get 
into car crashes when they are going too fast on the bumps that 
are on the road. Sometimes we have name games. Sometimes we 
have home games over here. Parents do not like to come to the 
games because of this road. My family do not like the road 
because of the rocks and bumps. Our trucks and cars are getting 
rocks into the tires. Then it gets flat. Can you please fix the 
road for us. Please? Thank you. Marcario Betoney.

    Indian reservation roads are not an Indian problem. The 
Indian Reservation Roads Program impacts all people--tribal and 
non-tribal alike. Tribal lands provide vitally needed access 
within and between States, and support a multitude of economic 
interests, including tourism, agriculture, energy production, 
manufacturing, mineral extraction, and timber harvesting.
    Indian reservation roads represent 2.65 percent of all 
Federal lands highways, yet receive less than 1 percent of the 
Federal surface transportation budget. In fact, last year 
tribes received even less than the year before. In fiscal year 
2003, the Indian Reservation Roads Program was slashed $40 
million below the 2002 level, while States received an 
increase.
    I respectfully urge this committee to ensure that equity 
actually means something in the reauthorization of the 
Transportation Equity Act of the 21st century.
    Thank you. I would ask that my prepared statement be 
inserted in the record in its entirety.
    The Chairman. Without objection, so ordered.
    [Prepared statements of Mr. Shirley and Mr. Maryboy appear 
in appendix.]
    Mr. Shirley. Attached to my written testimony, Chairman 
Campbell and members of the committee, are some photos for your 
perusal. It is very typical of what roads are like on Navajo 
land.
    The Chairman. Thank you.
    Mr. Shirley. Chairman Campbell, can you give my council 
delegate, Mark Maryboy, some time? Maybe you can just make his 
written testimony part of the record.
    The Chairman. His testimony is included with yours and has 
been made a part of the record.
    As you know, I live down in the Four Corners area near you. 
I travel on some of those roads myself when I go see friends 
and cross the Navajo Reservation. I know what most people on 
the committee do not know is that during the winter time that 
some of your roads are impassable. The difficulty is that 
people who have to leave their cars on a paved road miles and 
miles away from where they live. In fact, sometimes the winters 
get so bad we have had to provide air drops of food for 
children because people cannot get into the community to be 
able to get food. I am very aware of that.
    I was looking at the pictures you provided for the 
committee. This one looks like the bottom of a bridge with 
rotting planking. Are these structures old oil drilling pipes 
that are holding that bridge up?
    Mr. Shirley. I think those are metal pipes. They are all 
rusted and corroded. It is very dangerous.
    The Chairman. It also looks to be.
    We also have written testimony by Mr. Maryboy.
    Mark, years ago were you a county commissioner in Utah?
     Mr. Maryboy. Yes.
    The Chairman. That was you. I met you years ago. I just 
have not seen you for a long time. I am glad you are still 
active in public policy with the tribe. You did a fine job as a 
county commissioner, too, by the way.
    Mr. Maryboy. Thank you.
    I have served as a county commissioner for the last 16 
years. I retired last year. I remember you and I were riding 
broncos in Dorado, CO.
    The Chairman. That is right. We were both chasing the 
horses. That has been a long time ago. I am glad to see you 
here. I am glad you have been active all these years. 
[Laughter.]
    We will now go to Chairman Smith.

   STATEMENT OF HON. CHADWICK SMITH, CHAIRMAN, THE CHEROKEE 
   NATION, TAHLEQUAH, OK, ACCOMPANIED BY JACKIE BOB MARTIN, 
CHAIRMAN, RESOURCES COMMITTEE, CHEROKEE NATION TRIBAL COUNCIL, 
 AND HARLEY BUZZARD, DIRECTOR OF ROADS, CHEROKEE NATION TRIBAL 
                            COUNCIL

    Mr. Smith. Good morning, Mr. Chairman, and members of the 
committee. My name is Chad Smith. I am the principal chief of 
the Cherokee Nation. Joining me are Jackie Bob Martin, chairman 
of the Resources Committee of the Cherokee Nation Tribal 
Council; and Harley Buzzard, director of our Roads Program.
    I testify today in strong support of the tribally-developed 
transportation program improvements reflected in the bill 
before this committee, not only for the Cherokee Nation but 
also for the 500,000 tribal citizens of the Cherokee, Seminole 
Creek, Choctaw, and Chickasaw Nations.
    I am pleased to see the common sense ideas, innovative 
proposals, and the increased funding in your bill, Mr. 
Chairman, as well as those in Senator Bingaman's bill, and in 
Senator Johnson's bill.
    My brief remarks will focus on four issues I believe are 
critical to any tribal transportation reauthorization bill: 
Economic development, safety, funding equity, and program 
efficiency. The Cherokee Nation has more than 237,000 tribal 
citizens, nearly one-half of whom live within our 7,0900 square 
mile jurisdictional area, which is basically Northeastern 
Oklahoma.
    According to the 2000 Census, our jurisdictional area is 
home to 462,000 American citizens who benefit from the jobs, 
infrastructure improvements, and business opportunities that 
the Cherokee Nation brings to Northeastern Oklahoma. It is very 
clear that roads benefit Indians and non-Indians alike.
    The 2000 Census Report indicates that 13 percent of the 
families and 16 percent of the individuals live below the 
poverty line in our area. This reauthorization provides 
Congress an unique opportunity to jump-start the economy in 
Eastern Oklahoma. I have seen the economic health, safety, and 
societal benefits that come when our transportation systems are 
improved and our infrastructures properly maintained.
    As you know, every dollar invested in transportation 
infrastructure yields a sixfold increase in the Nation's 
economy, generating many new and desperately needed jobs. This 
investment is especially important for the tribes. By making a 
modest financial investment and other common sense improvements 
to Federal transportation laws, Congress can help tribes turn 
areas that are too often pockets of poverty into engines of 
economic growth.
    We applaud the Administration's reauthorization proposal 
which focuses on transportation safety and security. We also 
support your proposal, Mr. Chairman, and Senator Bingaman's, 
and Senator Johnson's, to provide tribes with direct access to 
Federal transportation safety funds. The statistics on traffic 
injuries and fatalities on tribal roadways are truly appalling.
    This committee's own report in 2000 concluded that the 
unsafe conditions on many IRR roads and bridges have led to an 
annual fatality rate on the IRR system of more than four times 
that of the national average. While statistics are important to 
make a point, they cannot adequately capture the grief of a 
Cherokee citizen who lost a loved one in a preventable traffic 
accident a few years ago. Gerald Blackbear, a full blood 
Cherokee, lost his life in a car crash on the Fairview/Eucha 
Bridge in the northern part of the Cherokee Nation.
    This bridge is situated on a roadway which provides access 
to health clinics, shopping, and employment, and is also a bus 
route for the local school. I have a photograph of that actual 
bridge. I would ask permission to pass this picture to the 
committee.
    The Chairman. Please do.
    Mr. Smith. Here is the original one-lane bridge with no 
guard rails and no safety to it. He drove off in the rain. It 
was several hours before his body was recovered. You see to the 
right of that photograph a bridge that has now been completed 
under the IRR program. This shows you the success and the 
critical need for this endeavor.
    With the committee's permission, I will circulate these.
    The bridge was a small one-lane roadway that had dangerous 
turns and no guard rails. While the Nation has received funding 
since to replace the bridge, it was soon enough to prevent the 
unnecessary death of Gerald Blackbear. We can and must do 
better.
    Mr. Chairman, we all realize the budget restraints facing 
Congress, but the Indian Reservation Roads Program has been 
under-funded for far too long. Tribes need and deserve funding 
equity. Two statistics prove my point. I believe the committee 
is well aware of these.
    Although the IRR system comprises 2.63 percent of the 
Federal aid system, it receives less than 1 percent of the 
surface highway funding out of the National Highway Trust Fund. 
According to the BIA and transportation experts, the current 
IRR construction backlog is between $11 and $25 billion.
    The Cherokee Nation faces similar challenges in budgeting 
scarce resources but we have determined roads and 
infrastructure to be a high priority when allocating 
substantial tribal funds to supplement our IRR allocation.
    Of course, Congress should increase the funding for IRR and 
reinstate the program's exemption from the obligation 
limitation deduction. For States, the obligation limitation is 
a temporary delay in full funding. But for tribes, obligation 
limitation is a permanent loss which removes $35 million 
annually. That is about 13 percent of the IRR Federal budget 
loss.
    Restoring the exemption from the obligation limitation is a 
no-cost way of increasing annual funding to the IRR program. 
Unlike the States who ultimately get the obligation limitation 
back, the tribes obligation limitation is basically forfeited. 
In the alternative, we would request the obligation limitation 
funds to be directed back to the tribes and not to the State.
    In terms of program efficiency, when the Federal aid 
highway system was developed in the mid-1950's, Federal Indian 
policy supported termination of the trust responsibility and 
elimination of Federal recognition for tribal governments. 
During that period, Federal transportation laws enabled money, 
intended for the tribal transportation systems, to be funneled 
to the State and BIA.
    While the termination era has long since passed, the 
funding mechanism for tribal transportation systems remains the 
same. The result is an inefficient program that cost Federal, 
State, and tribal officials countless hours and many millions 
of dollars in needless transaction costs. Moreover, this 
funding structure does not support tribal self-determination or 
self-governance.
    I would have disagree with my colleague, Mr. Virden, about 
the 6 percent BIA Administration set-aside, we believe it is 
unnecessary for self-governance tribes. For example, when we 
design a road, we have a professional engineer design that 
road. He stamps the plans. Those plans are submitted to a 
second professional engineer under our guidelines who approves 
those plans. Then, under the current system, those plans are 
again submitted to the BIA who have their own professional 
engineer to stamp those plans a third time.
    Under the demonstration program with the Red Lake Band of 
Chippewa Indians have demonstrated that that is unnecessary 
duplicity of bureaucracy. The professional engineers' 
reputation in that disciple provides insurance of quality work.
    As one of the first tribes in the country to bring self-
governance principles to the IRR program, we have seen first 
hand the positive benefits that can be brought to our people in 
our communities. We recognize that funding is limited, and 
request that we be given the tools to maximize those limited 
resources.
    Simply, elimination of the exemption for the tribes' 
obligation limitation and elimination of the BIA 
Administration's 6 percent cost, would mean 20 percent more 
funding for actual construction of roads. We are hopeful that 
you and members of this committee will work closely with 
Senator Inhofe to develop a tribal transportation 
reauthorization bill that has the broadest support of all 
possible tribal governments.
    Finally, Mr. Chairman, when you introduced your bill in 
2000, you stated for Indian communities an efficient Federal 
roads financing construction system holds the key to healthier 
economies and higher standards of living for their members. I 
could not agree with you more. I urge the committee to adopt 
your proposals as well as those of Senator Johnson and Senator 
Bingaman.
    Thank you, Mr. Chairman, and members of the committee, for 
the opportunity to testify in strong support of this important 
legislation. I would be happy to answer any of your questions. 
I would ask that my prepared statement be inserted in the 
record in its entirety.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Mr. Smith appears in appendix.]
    The Chairman. Thank you.
    We will now move to Chairman Milonovich.
    Before you start, Richard, I would like to tell you that 
Senator Allen and I really enjoyed our visit with you last week 
in your home lands. He still talks about the terrific 
interaction you have with the local community and county 
government. He has told me several times he wants to come back 
and go for a horseback ride up in that beautiful canyon you 
showed up with that tribal park. You can look forward to both 
of us coming back when we have the time.
    You can go ahead and proceed.

 STATEMENT OF RICHARD MILONOVICH, CHAIRMAN, AGUA CALIENTE BAND 
                 OF CAHUILLA, PALM SPRINGS, CA

    Mr. Milonovich. Thank you, sir. I appreciate that.
    Mr. Chairman, thank you for the opportunity to share our 
views with you that highlight the solutions to the 
transportation challenges that are faced by Indian tribes and 
the members of the Agua Caliente Band Indians on a reservation 
headed in Palm Springs, CA.
    Our transportation issues and challenges, however, are 
largely a result of our existing checkerboard land ownership 
patterns in the growth of these communities around our 
reservation. Today my testimony will address three subjects:
    First, our innovative proposal for tribal road bonding; 
second, the current Indian Reservation Road Program, including 
proposed modifications of that program; and, third, specific 
road projects that we are working on independently and within 
the city of Palm Springs.
    First, we have put forward an innovative financing proposal 
for tribal roads. our tribal roads bonding proposal supplements 
the current IRR program. It draws on the growing financial 
sophistication and where-with-all of many tribes. Our proposal 
works like this.
    When a tribe or tribes cooperatively, wish to build a road 
to service their reservation, the design and plans for the road 
are developed. The road is included on the tribal 
transportation plan, or any other existing transportation plan. 
The tribe takes that design and plan to the Department of 
Transportation who check to see that all is in order with the 
design, and that costs are in line. We can, but are not 
required, to make a tribal contribution toward the project. If 
we contribute, however, 25 percent of the project costs, then 
the tribe's project is eligible for one-half of the money 
available under the bonding program.
    When DOT approves the project, it issues a commitment to 
pay the remaining costs of the project over a period of years. 
The tribe takes the commitment and then issues a bond to cover 
the cost of the project. From the proceeds of the bond it 
builds the project in that year rather than waiting.
    Then each year the tribe gets payment from the Department 
of Transportation and, in turn, pays the bondholder. The money 
comes from the Highway Trust Fund. Our idea is patterned after 
the existing DOT program that allow States to use some of their 
regularly flowing highway dollar revenues from their annual 
allotment to pay for road bonds. This style of financing for 
roads is how all long-term assets should be financed, 
especially roads.
    The second topic I will cover today is the existing 
Reservation Roads Program. It is a good program, and I am glad 
that the BIA, after 7 years, finally has a package of 
regulations for the program. I am also glad that there are some 
modifications, including increased funding, that have been 
proposed legislatively. We support these modifications.
    Under this program, our tribe has received approximately 
$90,000 for road planning activities during the last 3 years. 
The current funding level does not address the needs of small 
tribes, particularly those in California. That is why we are 
proposing an innovative finance bonding program. That is why we 
support the modifications to the current IRR program.
    I have the following recommendations regarding the existing 
IRR program. At the very least, the BIA IRR formula should 
reflect the $100,000 base funding per tribe right off the top 
takedown. The base funding is needed to meet the minimum 
planning for intermodal transportation.
    California tribes should receive a minimum of 9.2 percent 
of the BIA IRR funds, which is the minimum guaranteed rate that 
California receives from the Federal Highway Trust Fund. My 
point is that we have received plenty of money for the current 
program, but we have not received road money. We have needed to 
self-finance important road projects.
    My third topic is to discuss our current transportation 
priorities. As one of the few tribes in the United States who 
inhabit a large urban area, our transportation needs are 
somewhat different than those of most tribes. Agua Caliente has 
developed a list of transportation requests that not only 
benefit tribal members, but also our neighbors within the 
Coachella Valley.
    We have three cities as well as the county of Riverside 
which are located on or near our reservation. We are now 
seeking Federal funds for three priority projects: First, road 
and bridge improvements to South Palm Canyon Drive and the 
Indian Canyons access road; second, replacement of the Indian 
Canyon/Interstate 10 interchange; and, third, construction of 
the Mid-Valley Intermodal Transportation Center.
    South Palm Canyon Drive is the only road into the Indian 
Canyons Nature Preserve and Agua Caliente Cultural Museum site. 
It also provides access to numerous residential developments, 
businesses, and the Agua Caliente Tribal Government Building.
    The tribe has requested $7.2 million in Federal funding to 
complete improvements on South Palm Canyon Drive. The funding 
will complete realignment and pavement of existing roads, 
replacing inadequate bridge structure over the Arenas South 
Drainage Channel, and construct an intermodal transportation 
center providing additional access to Indian Canyons Cultural 
site and the Agua Caliente Museum.
    Currently 90,000 vehicles per day travel I-10 through the 
Indian Canyon Interchange, while some 19,000 vehicles per day 
travel this section of Indian Canyon Drive. The Agua Caliente, 
in partnership with the city of Palm Springs, has identified 
the Indian Avenue interchange as a top priority for the highway 
bill reauthorization. We have requested $15.3 million to 
replace the existing two-lane I-10 Indian Canyon Drive 
interchange constructed in 1956 with a six-lane interchange and 
accompanying access ramps and service roads.
    Enhancing existing roads and building new roads is only one 
part of the long-term program solution to our traffic issues. 
We must also improve access to mass transit. Currently, very 
few people arrive in the Coachella Valley by rail. The only 
passenger rail service provided to the Palm Springs area is one 
daily, late-night stop by Amoral.
    The Agua Caliente and other governmental organizations in 
the Coachella Valley have long desired a passenger rail service 
connection to Los Angeles. To bring passenger rail service to 
the Coachella Valley, we must have the infrastructure in place 
to support the service.
    Knowing that the highway bill reauthorization will 
emphasize enhancement of intermodal centers, we have requested 
$4.2 million to construct the Mid-Valley intermodal Center. The 
funds will allow for construction of a terminal building 
parking structure, a park-and-ride facilities, 500-foot double 
track passenger platforms, and pedestrian under-crossing for 
enhanced passenger safety and convenience.
    The Agua Caliente are serious about the opportunity for a 
Mid-Valley intermodal station and have supported the Coachella 
Valley Association of Governments, which includes nine cities, 
two tribes, and the county, and have purchased 11 acres of 
land, at a substantial cost, where the rail station and park-
and-ride facility will be located.
    To sum up, we are requesting the committee's assistance 
with all three of the issues presented today. We appreciate the 
time and the attention of the committee to these important 
issues. We ask that you address these issues in the 
reauthorization of the highway bill.
    Thank you. I would ask that my prepared statement be 
inserted in the record in its entirety.
    We welcome you back again as soon as you can get there.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Mr. Milonovich appears in appendix.]
    The Chairman. Thank you very much.
    I will have some questions for you in 1 minute.
    Senator Murkowski, did you have an opening statement?
    Senator Murkowski. No, Mr. Chairman; I would rather just 
listen to the witnesses.
    The Chairman. Okay.
    We will now move to Mr. Garrigan. Please go ahead and 
proceed.

 STATEMENT OF JAMES GARRIGAN, TRANSPORTATION PLANNER, RED LAKE 
      BAND OF CHIPPEWA INDIANS OF MINNESOTA, RED LAKE, MN

    Mr. Garrigan. Good morning, Mr. Chairman, and members of 
this Committee. My name is James Garrigan, Transportation 
Planner, for the Red Lake Band of Chippewa Indians.
    On behalf of our chairman, William G. King, and the tribal 
council, I thank you and other distinguished members of this 
committee for the opportunity to provide testimony concerning 
proposed amendments to the Indian Reservation Roads Program, as 
contemplated under S. 281 and S. 725. Although only recently 
introduced and referred to the committee, I would like to take 
this opportunity to provide the committee with some initial 
feedback on S. 1122 as well.
    Before I comment on the subject bills, I would like to 
provide the committee for the record a brief synopsis of the 
recently completed TEA-21 negotiated rulemaking process for the 
IRR program. While I appreciate the opportunity to represent 
the tribal caucus as a tribal cochair on the Federal Tribal 
Negotiating Rulemaking Committee, I was disappointed with what 
I, along with the majority of the tribe representatives on the 
committee, viewed as a blatant disregard for Congressional 
intent by the Federal representatives on the committee.
    While the committee's tribal caucus met every challenge and 
every imposed deadline, the BIA delayed the committee process 
for months at every juncture. Because of the long delays by the 
BIA, the tribes felt that they did not have sufficient time to 
properly negotiate key items that are important to tribes. As a 
result, there are 13 major disagreement items that did not get 
properly addressed.
    Although this was supposed to be a tribally-driven process, 
it was far from it. The proposed rule was published with 
Federal language in place on the disagreement items. It appears 
that the final rule will be published likewise. Many tribal 
committee members feel that because of this, the entire 
negotiated rulemaking process was a travesty.
    The legislative reform effort by Congress 6 years ago was 
aimed at removing many obstacles that hampered tribes in the 
past and their attempt to administer the IRR program under 
self-determination or self-governance.
    Again, despite the tribal reform language that exists in 
TEA-21, we believe that it is necessary for the Congress to 
even more explicitly mandate that the Federal roads bureaucracy 
facilitate the complete transfer of all authority and 
responsibility for the administration of the IRR program to 
those tribes so requesting, and to legislatively enforce full 
tribal autonomy in the operation of the program formerly 
operated by the U.S. Government.
    Unless Congress does this by statute, certain Federal 
agencies will never appreciate, and Indian tribes will never 
realize, the true meaning of self-determination and self-
governance.
    The Red Lake Band is in general favor of S. 281 and S. 725. 
S. 281 contains provisions which hopefully will finally achieve 
what Congress has intended for Indian tribes since the 
enactment of the Indian Self-Determination and Education 
Assistance Act of 1975.
    Passage of this bill would stop the loss of IRR program 
funding that resulted with the application of the obligation 
limitation. S. 281 would also allow tribes to deal directly 
with the Federal Highway Administration on a government-to-
government basis.
    While the Red Lake and all Indian tribes throughout the 
country appreciate the increased funding for the IRR program 
that Congress made available under TEA-21, the program is still 
critically under-funded. The application of the obligation 
limitation requirement to these funds offset much of the 
benefit Indian tribes were to receive through the increased 
funding.
    Passage of this bill would help ensure that all funding 
allocated for the IRR program remain available for distribution 
to Indian tribes, a goal Red Lake fully endorses. The Red Lake 
Band has been a strong advocate for Indian tribes having a 
direct relationship with the Federal Highway Administration. S. 
281 would provide a vehicle to make this happen under a 
demonstration project.
    The Red Lake Band has been at the forefront in 
demonstrating that Indian tribes can deliver on programs that 
Congress has provided to further promote self-determination and 
self-governance. Red Lake was one of the first tribes in the 
Nation to assume the entire IRR program under Title IV of 
Public Law 93-638, as amended. The documented success of this 
program serves as a model for other tribes to follow.
    Red Lake will also be at the forefront in demonstrating 
that Indian tribes can independently coexist with the Federal 
Highway Administration without the involvement of the BIA. Red 
Lake also supports the safety incentive grants as proposed in 
S. 281.
    Moving on to S. 725, the Red Lake Band supports the 
provisions of this bill that increases the amount of funding 
available for the IRR. We feel that the increase in funding for 
the IRR program and removing the obligation limitation will 
provide greater opportunities for jobs on Indian reservations. 
The Red Lake Band also supports the Indian rural transit 
program provisions in this bill.
    Recently, another bill has been introduced by Senator 
Johnson and Senator Daschle, S. 1122. This bill contains 
several provisions that closely mirror those in S. 281 and S. 
725. However, in the short time between introduction of S. 1122 
and the development of this testimony, the Red Lake Band has 
not had an adequate opportunity to fully analyze and assess S. 
1122.
    Our initial impression, however, is that S. 1122 touches 
upon a variety of transportation issues that are important to 
Indian country, but requires further refinement to ensure that 
the successful gains in Indian program administrations are not 
adversely impacted unintentionally.
    The Red Lake Band would also like to take this opportunity 
to propose to the committee for consideration as part of the 
IRR program amendments a concept that we believe would help 
foster economic development in Indian country. While a number 
of Indian tribes receive IRR services either directly from the 
Federal Government, or through contracts or agreements under 
the Indian Self-Determination and Education Assistance Act 
Authority, the BIA continues to use a substantial portion of 
IRR funding to procure IRR-related services from non-tribal 
contractors located far from Indian communities.
    As a result, the full benefit of this Federal funding often 
eludes tribal communities because outside contractors deliver 
the referred benefit or product on reservation but conduct most 
of the economic activity off reservation so that little, if 
any, ancillary benefit is derived by tribal communities.
    We are proposing that Public Law 93-638 authority be 
expanded to include that if a beneficiary tribe chooses not to 
contract under the Indian Self-Determination and Education 
Assistance Act, to carryout an IRR function, and the BIA 
chooses not to provide the function through direct services, 
then an Indian tribe having the resources to perform the 
function would be eligible to contract the work under the 
Indian Self-Determination and Education Assistance Act prior to 
the BIA offering the work to non-tribal contractors.
    We believe that this provision would enable Indian country 
to more fully benefit from Federal program funds.
    In conclusion, Mr. Chairman, I was dismayed by some of the 
previous testimony I heard when the witnesses referred to the 
Federal Government as owners of the roads in Indian 
reservations. That ownership is beneficial ownership. The 
tribes actually own those roads. Tribal governments are 
governments. They are elected governments and they are public 
authorities.
    I was happy to hear Senator Johnson say that we need to 
amend title 23 to correct this. Red Lake would be happy to 
assist your staff in crafting some language to clear this up so 
we can move on.
    I would ask that my prepared statement be inserted in the 
record in its entirety.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Mr. Garrigan appears in appendix.]
    The Chairman. Hopefully we might make some improvements, 
including some of your suggestions, such as allowing tribes 
that have road building expertise to contract with other 
tribes. I think that would be a constructive amendment.
    I have to tell you that I do not blame you for being 
somewhat frustrated with how long it takes to get some things 
changed within the Bureau. In TEA-21, it was my amendment that 
required the negotiated rulemaking authority. It has taken the 
Bureau over four years to even get their rules in order from 
that.
    In some cases they have two speeds over there: slow and 
stop. Those are the two to choose from.
    The danger with roads just keeps going on. Hopefully we can 
fix some of the inequities of the last TEA-21 in this bill.
    Thank you. Now we will proceed with Ms. Bullard.

STATEMENT OF LORETTA BULLARD, PRESIDENT, KAWERAK, INCORPORATED, 
                            NOME, AK

    Ms. Bullard. Thank you, Chairman Campbell and Senator 
Murkowski. Thank you for the opportunity to testify. My name is 
Loretta Bullard and I am president of Kawerak, which is a 
regional tribal consortium in Northwest Alaska. We have 20 
federally-recognized tribes in our consortium. I also serve on 
the Alaska Federation of Natives' Board of Directors.
    Collectively, Alaska Natives own 44 million acres in the 
State of Alaska, or just about 11 percent of the State. We have 
229 widely dispersed communities across the State. We have very 
few roads. Much of our land was selected by the Native 
corporations for its economic development potential. We need 
access to those resources.
    Just to give you an idea of the size that we are dealing 
with, in our service area it is 1 hour and 10 minutes north by 
a twin engine plane, and 1 hour and 10 minutes west by plane, 
and 1 hour and 10 minutes south by plane. That is our service 
delivery area, which is about 45,000 square miles. We have very 
few roads.
    Our ground transportation system is very undeveloped in 
comparison to the rest of the United States. Most of our 
village streets are no more than unimproved dirt paths. I have 
included color photographs for the committee. We have very 
little snow removal in our communities. We use snow machines in 
between our villages during the winter time as well as small 
airplanes because there are no roads. We also use boats during 
the summer time.
    While this hearing is being held to solicit recommendations 
and comments on S. 725 and S. 281, I also want to speak to the 
NCAI draft bill and S. 1122. We wanted to express our support 
for the language contained in the NCAI draft bill that would 
change the name of the Indian Reservation Roads Program 
throughout Title 23 to the Tribal Transportation Program. We 
feel that the language better reflects the wide scope of the 
program.
    We strongly support the appropriations as outlined in S. 
1122. We support excepting the IRR program from the obligation 
limitation, and support the increased appropriation for the 
bridge program. One of the bridges in our area, just to give 
you an idea of how old it is, used to cross the Panama Canal. 
It is one of those unbolt them and move them kind of bridges. 
It used to be the Cushman Street Bridge in Fairbanks. Then when 
they replaced that bridge, they moved it to our area.
    We want to speak to the language in S. 725 that would 
require the Secretary to verify the existence of all roads that 
are part of the IRR system and to distribute funds based only 
on those roads. We oppose that language because we feel that it 
would just continue to allocate funds based on the existing 
road mileage and those areas without roads would continue to 
receive little, if any, funds.
    We support the language that would establish a minimum of 
$35,000 base per tribe for tribal transportation planning and 
bump the 2 percent planning allocation to 4 percent. Using our 
Bering Straits Region Tribes as an example, in March 2002 our 
tribes were informed that they were eligible to apply for 
$1,125 as their share of the Alaska 2 percent planning money. 
Bumping that to a 5-percent increase would bump their tribal 
transportation planning dollars to $2,812. That is enough for a 
round-trip ticket to Anchorage, plus some per diem.
    I am not going to speak to all the areas that we support. I 
have that in my written testimony, but I did want to mention 
areas that we are suggesting be changed. We are suggesting that 
section 106 of S. 1122, whereby it requires the Secretaries to 
establish a joint IRR Coordinating Committee. We suggest that 
you need to add language there that would give that Committee 
some teeth beyond being purely advisory.
    It has been really frustrating contracting with the BIA for 
the roads program for the last 5 or 6 years. It is just about 
impossible to get things done, or make changes to the system. 
It is very frustrating.
    We oppose the language contained in S. 1122, sections 202 
and 203 which directs the secretary to make competitive grants 
available to establish tribal transportation safety programs. 
We think it is a good idea, but the current language makes 
funds available only to those tribes on Indian reservations, or 
who have land under the jurisdiction of the tribe. In the NCAI 
draft bill there was language that made funds available to 
Indian tribes and tribal organizations to establish tribal 
transportation safety programs. It is not necessarily tied to 
your land base.
    In the last 5 years in our area we have had about 12 deaths 
due to tribal transportation issues. We do have some safety 
concerns that we would like to address.
    In terms of some Alaska specific issues, we want to speak 
to our inventory problems. One of the major problems with the 
existing IRR program is that the funding formula used to 
distribute funds nationally is based primarily on the inventory 
of IRR routes. For Alaska, we have never had a true inventory. 
We have been working on it for these last 2 or 3 years through 
funds that were made available through the administrative 
capacity building funds, but we are finding it extremely 
difficult to get our routes into the BIA inventory. We have 
been finding that the information that you need to submit or 
that the areas identified in the BIA manual keep being 
reinterpreted to require different data sets or information 
that needs to be included.
    We have been working very hard on this for the past 2 
years. There are 189 tribes in the State of Alaska that have 
contracted to do their inventory developments. We have been 
very limited in our ability to get that information into the 
system. We feel that needs to be addressed.
    One example of how they are changing the rules is this. The 
latest road inventory checklist purports to require that a 
tribe have an approved long-term transportation plan in effect 
before the inventory changes are made. We are still developing 
our inventory. We do not have a long-term transportation plan 
that is going to support the need to tweak the inventory.
    We are also concerned that the BIA, since 1993, has had a 
2-percent policy that limits the ability of areas to increase 
the inventory by 2 percent over any given year. Alaska has 
never had a good inventory to start with. In 1993 the villages 
in the State were asked to identify their number one project. 
That was all they were asked to identify. One-third of the 
villages did not even respond. There are about 150 villages 
that identified their single priority project. That became the 
Juneau Area Transportation Plan.
    That is not an inventory. That is not a true reflection of 
need. We encourage Congress to enact language that would direct 
the BIA to include our village streets and primary access 
roads. We have not even been able to get those into the 
inventory.
    We are also suggesting that regional tribal transportation 
authorities be developed for Alaska. It is such a huge State. 
We recognize the need to work together. We are suggesting some 
language that would create some regional transportation 
authorities under the guidance of the tribes or the regional 
corporations, as decided by people within the area.
    I want to close by saying that we do support the road 
bonding that was proposed by the Agua Caliente Band provision.
    Thank you for this opportunity to testify. I would ask that 
my prepared statement be inserted in the record in its 
entirety.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Ms. Bullard appears in appendix.]
    The Chairman. Thank you.
    I have a lot of questions. I am going to submit those to 
you. If you would put answers to those and submit them to the 
committee, I would appreciate it.
    I would like to ask a few questions at this time.
    Ms. Bullard, I guess it has been about 3 years ago I went 
with Senator Stevens to Alaska to visit some villages. We went 
to some larger towns. One of the places we went to was Barrow. 
As I remember, they told us there were only 12 miles of road 
around Barrow. All the fuel and automobiles that were in town 
had to be brought in by a barge. There was no road to go 
anywhere out of Barrow. When you mentioned that a third of the 
villages did not respond to the last request you had for an 
inventory, I can see that if Barrow was considered one of the 
larger ones, some of the villages must have real problems with 
transportation. Now, in those small villages, there must be 
many of them that do not have roads to get to any outside main 
road. Is that correct or not?
    Ms. Bullard. That is correct. The majority of the 
communities in the State do not have access to roads. Nome 
probably has 300 miles of road.
    The Chairman. So they have to fly in or fly out, or go by 
snow mobile, barge, or some other way. Okay, thank you.
    President Shirley, several of the members have talked a 
little bit about bonding for roads. With the Navajo having 
almost 10,000 miles of roads, mostly unpaved and many of them 
unimproved, if you rely strictly on Federal IRR funding, it is 
going to take forever to get the job done.
    Would you be supportive of that area of tribal road 
construction bonds to leverage additional road building 
capital?
    Mr. Shirley. Yes; we would, Chairman Campbell. We are doing 
what we can right now to even at that on our own. There is 
every possibility of doing that.
    The Chairman. That would bring up another question, then. 
Those Indian communities that have access to a steady income 
stream, they are going to be better able to repay those bonds, 
to pay off the bond holders, how would you envision the Navajo 
Tribe paying off bond holders?
    Mr. Shirley. We are trying to do what we can to put some 
money aside to do just that, some of the general revenues that 
come in from coal royalties, or gas royalties, to set some of 
that aside so that when we do bonds, that we would have a 
revenue stream to pay on the bonds.
    We also have a fuel excise tax that the Nation's Council 
also put into force. We are also looking at that as a revenue 
stream to pay the bonds that we might float to do roads.
    The Chairman. To Chief Smith, and maybe to Chairman 
Milonovich, in many cases the success of the IRR program is, in 
part, due to the ability of the tribes to partner with 
respective States to build roads together. In fact, when I was 
out visiting with the Agua Caliente Band, Chairman Milonovich 
showed us one road and bridge that they were interested in 
getting some Federal help for, but I assume there is going to 
be some partner with the local communities, too.
    Chief Smith, have you attempted to work with the State of 
Oklahoma on any reservation road projects?
    Mr. Smith. Yes; we have. We have had a very innovative 
program to work with the counties and cities. We actually use 
funds that we derive from a compact with the State in the 
issuance of our own automobile tags, to provide material for 
local counties. They come back and do the labor. We have 
investigated many innovative ways to work with local 
communities and with the State of Oklahoma.
    The Chairman. With the case of Oklahoma, you have a very 
strong Indian presence in your legislature with Kelly Haney and 
a few other senior members there. I would think that you have a 
really good voice in your legislature. In many States tribes do 
not have that strong voice in their legislature.
    In the case of the Agua Caliente Band, Richard, you 
mentioned one area that is an interchange. Was that the area 
that you showed us, the bridge and the widening of that road. 
Is that the same place when we were out there.
    Mr. Milonovich. No; the other was more to north of the 
city. It is right on the interstate.
    The Chairman. Oh, I see. It is right on the interstate. 
Okay. Thank you.
    Mr. Milonovich. We are working together with the city of 
Palm Springs as well as the Coachella Valley Association of 
Governments consisting of nine cities, two tribes, and the 
county working together on transportation issues which affect 
the entire Coachella Valley. We are working quite closely with 
everyone.
    The Chairman. I know that you do that very well with your 
tribe. I am always an admirer of how well you work with local 
county and city governments.
    Mr. Garrigan, you talked somewhat about the BIA soaking up 
a lot of the funding for administrative costs. Someone, and 
perhaps it was Mr. Smith, mentioned that they do the 
engineering themselves and they have it approved by the next 
level, and it goes through two or three approvals. Then it has 
to be submitted to the Bureau for their approval. Then, of 
course, they are keeping 6 percent. Basically all they are 
doing is rubber stamping all of the work that you already did. 
Has that been your experience, too?
    Mr. Garrigan. Yes; it has. We have all of our work done by 
licensed professional engineers. The second level review is 
also done by a licensed professional engineer.
    The Chairman. What do you suppose the Bureau does for 6 
percent?
    Mr. Garrigan. Give it a cursory review. They take a look at 
it and say, ``Okay, we will stamp it.''
    The Chairman. All right. Thank you. I have no further 
questions.
    Senator Murkowski, do you have any questions? You have one 
of your constituents here today.
    Senator Murkowski. Just very briefly.
    Mr. Chairman, it is tough to see in this corner here. I 
appreciate the testimony. I particularly appreciate your 
providing copies of some of the pictures. I think the pictures 
are quite compelling.
    One of the difficulties that we have in Alaska is just 
educating folks on our lack of a transportation system. When 
you have indicated that many villages did not submit comments 
as to their plan, it is because if you are a community that 
does not have roads, if you are a community that is connected 
by a boardwalk, and you go everywhere by snow machine or a four 
wheeler or a river boat, you do not need to submit a 
transportation road plan because there is no recognized road 
system. That is one of the huge difficulties that we have as a 
State.
    I also appreciate your comments about the inventory and the 
lack of an inventory in Alaska and how essentially we are 
shortchanged on that process. Mr. Chairman, I would just like 
to indicate for the record that I would certainly support the 
appropriations funding for the roads and the increase in the 
funding for the Indian roads, but would urge the BIA to work 
with the State of Alaska on this inventory issue to make it 
work.
    The question I would ask to you, Ms. Bullard, is, as it 
relates to the inventory, is there anything that you can 
suggest or propose that we can do to make that process work for 
us right now?
    Ms. Bullard. One thing that we have requested is a 
definitive description of what needs to be included in the 
inventory. Every time we turn around, the requirements keep 
changing. I think that would help. But I think the other thing 
that needs to be done is that a requirement that our basic 
infrastructure in our villages be included in the BIA roads 
inventory. By limiting us to 2 percent of what has been 
previously in the system, there has never been a complete 
inventory in the State. We are trying to do that. We have 
identified many roads that should be in the inventory, but they 
are not being put in because there is a two percent limitation 
on increases. We feel that is very unfair to the State of 
Alaska and does not reflect the true need of our communities.
    Senator Murkowski. We would like to work with you on that 
and make it work.
    Mr. Chairman, I appreciate the opportunity to ask the 
question and to hear the testimony of the witnesses today. 
Thank you.
    The Chairman. Thank you.
    I have one more question of Ms. Bullard. These pictures 
that you submitted for the record for us, but one just came to 
mind here. One is a picture of the main street of Wales, AK, 
and one picture of the main street of Shishmaref. It looks to 
me that that snow is clear up to the top of the roof; is that 
right?
    Ms. Bullard. Yes; in many of the houses there you actually 
have to dig tunnels to get into the homes. They do not do any 
snow removal during the winter time.
    The Chairman. That was going to be my next question. How 
the heck do you move that much snow? The automobiles in that 
town just sit there during the winter.
    Ms. Bullard. They sit during the winter. They use snow 
machines and four wheelers during the winter time.
    Just to use an example of that. I think it was in 1998 that 
the Assistant Secretary for Indian Affairs at that time, Kevin 
Gover, had gone to Shishmaref. Then we took him to Wales. On 
the day we took him to Wales, people were going from Wales to 
Diomede which is 40 miles off the mainland, because there are 
no ferries. There are no large boats. They do not bring any 
freight barges into that community. People actually run snow 
machines and four wheelers between Wales and Diomede in small 
20 to 25 foot boats.
    The day we were going there, they lost an entire boatload 
of individuals that were trying to travel between Wales and 
Diomede. They had been sitting in Wales waiting for the weather 
for about 3 weeks. They decided to go ahead and go because 
there is no commercial transportation in their community.
    The Chairman. How do you get from Wales to Shishmaref. Is 
that through a barge?
    Ms. Bullard. You can take an airplane between Wales and 
Shishmaref.
    The Chairman. How far is that?
    Ms. Bullard. I would say that is about 50 or 60 miles.
    The Chairman. How did you get Kevin there?
    Ms. Bullard. We flew him in a twin. But between Wales and 
Diomede, the only way to get into Diomede is they have once-a-
week helicopter service. There is no airport in the summer 
time. It is a winter sea-ice air field.
    The Chairman. Big problems.
    Senator Murkowski. Mr. Chairman, if I could, I would just 
ask Ms. Bullard.
    The Chairman. Certainly.
    Senator Murkowski. Do you have any idea of how many 
vehicles you actually have on Wales?
    Ms. Bullard. In Wales. I do not know. I have not been to 
Wales recently.
    Mr. Milonovich. My experience has been that you get out to 
these remote communities that are on islands and you have 1 
dozen vehicles.
    Ms. Bullard. In some of the communities, yes. But they do 
all have four wheelers and snow machines.
    Senator Murkowski. Which is the primary means of getting 
around.
    Ms. Bullard. There are getting to be more and more vehicles 
in the villages.
    The Chairman. Thank you.
    We will submit some questions for the rest of the 
committee. If you can, get those back to us by June 18 because 
we want to use our bill as part as an amendment to the new TEA-
21 bill.
    We will hold the record open for 2 weeks.
    Thank you for appearing.
    The Committee is adjourned.
    [Whereupon, at 11:47 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Mark Maryboy, Chairman, Navajo Transportation and 
                    Community Development Committee

    My name is Mark Maryboy and I am the chairman of the Navajo 
Transportation and Community Development Committee. I would like to 
begin by thanking this committee for all of their hard work on this 
issue. My remarks today are limited to S. 281 and S. 725. However, the 
Navajo Nation sincerely appreciate all of the bills that have been 
introduced and look forward to working with you to promote the final 
bill that is passed out of this Committee.
    I would like to begin my comments about S. 281 by saying that the 
Navajo Nation is working very hard on its own economic development. We 
have much to overcome. The unemployment rate on the Navajo Nation 
currently ranges seasonally from 36 percent to 50 percent. Our per 
capita income averages $6,123, which is less than one third of that in 
Arizona or New Mexico.
    The commercial vehicle driving training program proposed in S. 281 
could greatly help develop the Dine workforce. With a land base that is 
larger than the states of Connecticut, Delaware, Maryland, 
Massachusetts and Rhode Island combined, the Navajo Nation is long-haul 
territory. In fact, it would be difficult to make a commercial delivery 
from any place west of Durango, CO to any place east of Flagstaff, AZ 
without going through Navajoland. The Navajo people are used to driving 
great distances and might as well get paid for it.
    Like S. 281, S. 725 reflects the Navajo Nation's goal to promote 
self-determination. Both bills authorize a demonstration project that 
would enable tribes to apply directly to the Federal Highway 
Administration for Indian Reservation Road funding so tribes could take 
care of their own roads and bridges without relying upon the BIA. While 
this is an approach that the Navajo Nation has not yet decided to 
pursue, we support the desire of other tribes to do so. Both bills 
create an opportunity that should exist for tribes.
    In addition, S. 725 contains key provisions that would help achieve 
our fundamental goal of making the IRR Program more fair and effective. 
Section 3 contains the five changes the Navajo Nation believes are 
essential to improving the IRR:
    No. 1. Increase funding. We understand the current constraints on 
the Federal budget. That is why we support an incremental increase over 
the next 6 years. We believe that such an approach is a judicious way 
to begin dealing with what BIA estimates to be more than $9.8 billion 
of unmet transportation needs in Indian Country.
    No. 2. Exempt tribes from the obligation limitation. Since the 
passage of TEA-21, which applied the obligation limitation to tribes, 
the IRR Program lost $200 million it was otherwise authorized to 
receive. That capital leakage is staggering when you consider that $200 
million is roughly equivalent to the Program's total annual funding in 
1998. While their unmet needs make tribes the least able to bear the 
burden of the obligation limitation, Native Americans and Alaskan 
Native Villages are experiencing a disproportionate brunt of its 
effect.
    No. 3. Create a tribal bridge program. Tribes must currently decide 
whether a bridge or a road project is their higher priority in order to 
receive funding. That is a choice no community should have to make. On 
Navajo, we have 173 bridges, 27 of which need complete replacement and 
24 of which need major rehabilitation. A separate IRR bridge program 
that includes funding for pre-construction is essential for us to get a 
handle on these major safety concerns.
    No. 4. Fair and Equitable Distribution. TEA-21 is a road 
construction program. The Navajo Nation strongly believes that Federal 
lands highway dollars should therefore be spent on actual road miles. 
We understand that our friends in Alaska are currently having a 
difficult time getting a fair accounting of their road mile inventory 
and we encourage this Committee to develop a special project to remedy 
that situation.
    No. 5. Increase Planning Moneys. The Navajo Nation believes that 
planning is an essential predicate to capacity building. Transportation 
planning on Indian reservations is needed more now than ever because of 
growing populations and new homeland security concerns. The Navajo 
Nation supports increasing the percentage of allocated funds tribes can 
use for transportation planning from the current level of 2 percent to 
4 percent.
    Finally, S. 725 provides authorization for two programs that are 
essential for tribal transportation departments to be able to more 
effectively protect their reservation's people and environment. The 
Tribal Transportation Safety Program in Section 5 would authorize 
funding for tribes to launch buckle-up campaigns, anti-drunk driving 
initiatives and projects to eliminate traffic hazards. Given the fact 
that reservation roads have long been known to be the most hazardous in 
the country, this proposal is long overdue.
    The Tribal Transit Program is also essential for us to be able to 
help people on the reservation get where they need to go and improve or 
preserve air quality by reducing vehicle traffic. The current obstacle 
to developing mass transportation on reservations is the fact that 
tribes must go through the states to get funding. Section 6 of S. 725 
would remedy this situation by enabling tribes to apply directly to the 
Federal Transit Administration.
    I would like to conclude by thanking you for your commitment to 
helping improve the IRR Program. We look forward to partnering with the 
members of this Committee to ensure that IRR legislation is included as 
quickly as possible in the Federal transportation legislation that is 
now winding its way through Congress.

[GRAPHIC] [TIFF OMITTED] T7740.001

[GRAPHIC] [TIFF OMITTED] T7740.002

[GRAPHIC] [TIFF OMITTED] T7740.003

[GRAPHIC] [TIFF OMITTED] T7740.004

[GRAPHIC] [TIFF OMITTED] T7740.005

[GRAPHIC] [TIFF OMITTED] T7740.006

[GRAPHIC] [TIFF OMITTED] T7740.007

[GRAPHIC] [TIFF OMITTED] T7740.008

[GRAPHIC] [TIFF OMITTED] T7740.009

[GRAPHIC] [TIFF OMITTED] T7740.010

[GRAPHIC] [TIFF OMITTED] T7740.011

[GRAPHIC] [TIFF OMITTED] T7740.012

[GRAPHIC] [TIFF OMITTED] T7740.013

[GRAPHIC] [TIFF OMITTED] T7740.014

[GRAPHIC] [TIFF OMITTED] T7740.015

[GRAPHIC] [TIFF OMITTED] T7740.016

[GRAPHIC] [TIFF OMITTED] T7740.017

[GRAPHIC] [TIFF OMITTED] T7740.018

[GRAPHIC] [TIFF OMITTED] T7740.019

[GRAPHIC] [TIFF OMITTED] T7740.020

[GRAPHIC] [TIFF OMITTED] T7740.021

[GRAPHIC] [TIFF OMITTED] T7740.022

[GRAPHIC] [TIFF OMITTED] T7740.023

[GRAPHIC] [TIFF OMITTED] T7740.024

[GRAPHIC] [TIFF OMITTED] T7740.025

[GRAPHIC] [TIFF OMITTED] T7740.026

[GRAPHIC] [TIFF OMITTED] T7740.027

[GRAPHIC] [TIFF OMITTED] T7740.028

[GRAPHIC] [TIFF OMITTED] T7740.029

[GRAPHIC] [TIFF OMITTED] T7740.030

[GRAPHIC] [TIFF OMITTED] T7740.031

[GRAPHIC] [TIFF OMITTED] T7740.032

[GRAPHIC] [TIFF OMITTED] T7740.033

[GRAPHIC] [TIFF OMITTED] T7740.034

[GRAPHIC] [TIFF OMITTED] T7740.035

[GRAPHIC] [TIFF OMITTED] T7740.036

[GRAPHIC] [TIFF OMITTED] T7740.037

[GRAPHIC] [TIFF OMITTED] T7740.038

[GRAPHIC] [TIFF OMITTED] T7740.039

[GRAPHIC] [TIFF OMITTED] T7740.040

[GRAPHIC] [TIFF OMITTED] T7740.041

[GRAPHIC] [TIFF OMITTED] T7740.042

[GRAPHIC] [TIFF OMITTED] T7740.043

[GRAPHIC] [TIFF OMITTED] T7740.044

[GRAPHIC] [TIFF OMITTED] T7740.045

[GRAPHIC] [TIFF OMITTED] T7740.046

[GRAPHIC] [TIFF OMITTED] T7740.047

[GRAPHIC] [TIFF OMITTED] T7740.048

[GRAPHIC] [TIFF OMITTED] T7740.049

[GRAPHIC] [TIFF OMITTED] T7740.050

[GRAPHIC] [TIFF OMITTED] T7740.051

[GRAPHIC] [TIFF OMITTED] T7740.052

[GRAPHIC] [TIFF OMITTED] T7740.053

[GRAPHIC] [TIFF OMITTED] T7740.054

[GRAPHIC] [TIFF OMITTED] T7740.055

[GRAPHIC] [TIFF OMITTED] T7740.056

[GRAPHIC] [TIFF OMITTED] T7740.057

[GRAPHIC] [TIFF OMITTED] T7740.058

[GRAPHIC] [TIFF OMITTED] T7740.059

[GRAPHIC] [TIFF OMITTED] T7740.060

[GRAPHIC] [TIFF OMITTED] T7740.061

[GRAPHIC] [TIFF OMITTED] T7740.062

[GRAPHIC] [TIFF OMITTED] T7740.063

[GRAPHIC] [TIFF OMITTED] T7740.064

[GRAPHIC] [TIFF OMITTED] T7740.065

[GRAPHIC] [TIFF OMITTED] T7740.066

[GRAPHIC] [TIFF OMITTED] T7740.067

[GRAPHIC] [TIFF OMITTED] T7740.068

[GRAPHIC] [TIFF OMITTED] T7740.069

[GRAPHIC] [TIFF OMITTED] T7740.070

[GRAPHIC] [TIFF OMITTED] T7740.071

[GRAPHIC] [TIFF OMITTED] T7740.072

[GRAPHIC] [TIFF OMITTED] T7740.073

[GRAPHIC] [TIFF OMITTED] T7740.074

[GRAPHIC] [TIFF OMITTED] T7740.075

[GRAPHIC] [TIFF OMITTED] T7740.076

[GRAPHIC] [TIFF OMITTED] T7740.077

[GRAPHIC] [TIFF OMITTED] T7740.078

[GRAPHIC] [TIFF OMITTED] T7740.079

[GRAPHIC] [TIFF OMITTED] T7740.080

[GRAPHIC] [TIFF OMITTED] T7740.081

[GRAPHIC] [TIFF OMITTED] T7740.082

[GRAPHIC] [TIFF OMITTED] T7740.083

[GRAPHIC] [TIFF OMITTED] T7740.084

[GRAPHIC] [TIFF OMITTED] T7740.085

[GRAPHIC] [TIFF OMITTED] T7740.086

[GRAPHIC] [TIFF OMITTED] T7740.087

[GRAPHIC] [TIFF OMITTED] T7740.088

[GRAPHIC] [TIFF OMITTED] T7740.089

[GRAPHIC] [TIFF OMITTED] T7740.090

[GRAPHIC] [TIFF OMITTED] T7740.091

[GRAPHIC] [TIFF OMITTED] T7740.092

[GRAPHIC] [TIFF OMITTED] T7740.093

[GRAPHIC] [TIFF OMITTED] T7740.094

[GRAPHIC] [TIFF OMITTED] T7740.095

[GRAPHIC] [TIFF OMITTED] T7740.096

[GRAPHIC] [TIFF OMITTED] T7740.097

[GRAPHIC] [TIFF OMITTED] T7740.098

[GRAPHIC] [TIFF OMITTED] T7740.099

[GRAPHIC] [TIFF OMITTED] T7740.100

[GRAPHIC] [TIFF OMITTED] T7740.101

[GRAPHIC] [TIFF OMITTED] T7740.102


</pre></body></html>
